<html>
<title> - CLEARING THE SMOKE: UNDERSTANDING THE IMPACTS OF BLACK CARBON POLLUTION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
CLEARING THE SMOKE: UNDERSTANDING THE IMPACTS OF BLACK CARBON POLLUTION

=======================================================================

                                HEARING

                               before the
                          SELECT COMMITTEE ON
                          ENERGY INDEPENDENCE
                           AND GLOBAL WARMING
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 16, 2010

                               __________

                           Serial No. 111-15


             Printed for the use of the Select Committee on
                 Energy Independence and Global Warming

                        globalwarming.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
62-588                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ef889f80af8c9a9c9b878a839fc18c8082c1">[email&#160;protected]</a>  

                SELECT COMMITTEE ON ENERGY INDEPENDENCE
                           AND GLOBAL WARMING

               EDWARD J. MARKEY, Massachusetts, Chairman
EARL BLUMENAUER, Oregon              F. JAMES SENSENBRENNER, Jr., 
JAY INSLEE, Washington                   Wisconsin, Ranking Member
JOHN B. LARSON, Connecticut          JOHN B. SHADEGG, Arizona
HILDA L. SOLIS, California           GREG WALDEN, Oregon
STEPHANIE HERSETH SANDLIN,           CANDICE S. MILLER, Michigan
  South Dakota                       JOHN SULLIVAN, Oklahoma
EMANUEL CLEAVER, Missouri            MARSHA BLACKBURN, Tennessee
JOHN J. HALL, New York
JERRY McNERNEY, California
                                 ------                                

                           Professional Staff

                      Michael Goo, Staff Director
                       Aliya Brodsky, Chief Clerk
                 Bart Forsyth, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     1
    Prepared Statement...........................................     3
Hon. F. James Sensenbrenner, Jr., a Representative in Congress 
  from the State of Wisconsin, opening statement.................     5
Hon. Jackie Speier, a Representative in Congress from the State 
  of California, prepared statement..............................     6

                               Witnesses

Dr. Tami Bond, Associate Professor, Department of Civil and 
  Environmental Engineering, University of Illinois at Urbana-
  Champaign......................................................     8
    Prepared Statement...........................................    11
Dr. Veerabhadran Ramanathan, Professor of Climate and Atmospheric 
  Sciences, Scripps Institution of Oceanography..................    21
    Prepared Statement...........................................    23
Dr. Drew T. Shindell, Senior Scientist, NASA Goddard Institute 
  for Space Studies..............................................    36
    Prepared Statement...........................................    38
Mr. Conrad Schneider, Advocacy Director, Clean Air Task Force....    46
    Prepared Statement and Additional Materials..................    49


CLEARING THE SMOKE: UNDERSTANDING THE IMPACTS OF BLACK CARBON POLLUTION

                              ----------                              


                        TUESDAY, MARCH 16, 2010

                  House of Representatives,
            Select Committee on Energy Independence
                                        and Global Warming,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:10 a.m., in room 
1310, Longworth House Office Building, Hon. Edward J. Markey 
(chairman of the committee) presiding.
    Present: Representatives Markey, Inslee, Cleaver, and 
Sensenbrenner.
    The Chairman. Good morning.
    On December 5th, 1952, soot-filled smoke from London's 
factories and fireplaces settled on the city, and over the next 
few days thousands of people died from the soot and fumes. For 
years, the iconic image of Los Angeles was not the Hollywood 
sign; it was an obscured skyline. And while much progress has 
been made to clean up this pollution, clouds of sooty smoke 
continue to blanket homes from Mexico City to Mumbai, harming 
the health of millions of people.
    Soot is the visible portion of carbon pollution from 
smokestacks and tailpipes, burning fields and forests. It 
sticks to our lungs. It causes asthma and heart disease. It is 
what gives smoke its ominous color.
    And, as the saying goes, where there is smoke, there is 
fire. In this case, the fire is increased global warming. The 
black carbon in soot is one of the most potent warming agents 
affecting our planet.
    From diesel trucks to inefficient factories, from the 
cookstoves in southeast Asia to the burning forests of the 
Amazon, black carbon and other components of soot rise into the 
atmosphere every time we burn fossil fuel or biomass. There, 
black carbon absorbs sunlight and traps heat. Stuck on water 
drops and ice crystals, black carbon reduces the cooling effect 
of clouds. And when black carbon eventually falls out of the 
air and settles onto ice sheets and mountain snow pack, it 
accelerates the melting of ice and snow, contributing to rising 
sea levels and threatening water supplies.
    Cutting emissions of black carbon could yield rapid 
benefits for our health and climate. Black carbon only stays in 
the atmosphere for a few days to weeks before settling out. 
That means that a global effort to reduce these emissions would 
act fast to prevent respiratory disease and aid in the fight 
against global warming pollution.
    And we already have the technologies needed to achieve deep 
reductions, including particle filters, improved diesel engines 
and efficient cookstoves. Developing and installing these 
technologies would create jobs and move us forward in the clean 
energy economy.
    Now, I am sure there are some who would argue that if we 
cut black carbon pollution, we can delay on reducing greenhouse 
gasses like carbon dioxide. This simply will not address the 
momentous challenge that we face. For homebuyers, a solid 
downpayment can keep the mortgage more manageable, but they 
still have to make the monthly payments. If we want to keep the 
planet a viable residence, a downpayment in the form of black 
carbon reductions won't replace the need to make sustained 
investments in clean energy. Each year of delay will make it 
more difficult to keep temperatures from rising, and it will 
continue to put the American economy at a competitive 
disadvantage.
    We recently took steps to cut black carbon and greenhouse 
gas pollution. Last year, the House passed the Waxman-Markey 
American Clean Energy and Security Act, which will set us on a 
pollution-cutting path and at the same time create millions of 
new jobs, making America the global leader of the clean energy 
economy.
    Working with Representative Inslee, we incorporated a 
number of provisions that would cut emissions of black carbon 
here at home and seek opportunities to curb emissions abroad. 
This will provide innumerable benefits for our health and for 
our climate.
    The deadly soot-filled London fog of 1952 encouraged the 
U.K. to enact their own clean air laws in 1956. My hope today 
is that, even in the fog of war that sometimes envelops our 
progress on clean energy and climate change, that we can still 
clear the smoke to find common ground on issues like black 
carbon.
    I look forward to the testimony of our witnesses and 
hearing from them how Congress can help address this important 
issue.
    I would now like to recognize the ranking member of the 
select committee, the gentleman from Wisconsin, Mr. 
Sensenbrenner.
    [The prepared statement of Mr. Markey follows:]

    [GRAPHIC] [TIFF OMITTED] T2588A.001
    
    [GRAPHIC] [TIFF OMITTED] T2588A.002
    
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman.
    There is so much controversy about how to confront climate 
change that sometimes there seems to be no common ground. 
However, by taking a realistic approach to black carbon, we can 
have a positive effect on the environment without breaking the 
bank, which is something that both Democrats and Republicans 
should support.
    Black carbon, which is essentially soot, doesn't get the 
attention that CO<INF>2</INF> receives. That is too bad because 
the more focus on black carbon would produce immediate results 
for the environment without requiring the types of regulations 
that stifle the economy.
    Scientists are learning that black carbon is one of the 
leading contributors to climate change. Most global emissions 
of black carbon come from energy-related combustion and the 
burning of biomass. By coating both the air and the planet's 
surface with soot, black carbon absorbs heat at a dangerous 
rate. But unlike CO<INF>2</INF>, which hangs in the atmosphere 
for decades, black carbon lingers for only days at a time.
    It is also easier for society to address the emissions of 
black carbon. There are already a number of ways to reduce 
these emissions without relying on the cost-prohibitive 
technologies that CO<INF>2</INF> regulations would require.
    Most of the world's black carbon is produced in Asia. 
Surprisingly, when it comes to black carbon, the U.S. isn't 
cast as the bad guy, as North America produces less than 
Europe, South America, and Africa. But much of the black carbon 
produced in the developing world could be offset with simple 
technology and techniques.
    Improved farming and forestry policies would go a long way 
toward reducing the soot. So would cleaner-burning stoves, 
which are already readily available and could be cheaply 
deployed in many of the developing nations where dirty, 
inefficient stoves are commonly used. It would be a lot cheaper 
to buy clean stoves for developing nations than to implement 
draconian CO<INF>2</INF> regulations.
    As Congress struggles over how to confront climate change, 
black carbon reductions, targeted investments in research and 
development, and improved transmission are cost-effective 
options that could have large impacts without crippling our 
economy.
    I want to welcome Dr. Drew Shindell of NASA Goddard 
Institute for Space Studies, who will talk about the immediate 
impact that could result from cleaning up black carbon 
emissions.
    Hybrid truck legislation that I have introduced would also 
help black carbon. Diesel engines are a primary source of black 
carbon. Since most trucks use diesel, reducing fuel use in 
trucks would reduce both CO<INF>2</INF> and black carbon 
emissions. My bill would create a grant program in the 
Department of Energy to fund research and development of hybrid 
truck technology.
    This is one approach that is simple and affordable. There 
are many others, and I hope today's hearing leads to more 
understanding of this problem and its solutions.
    Thank you.
    The Chairman. I thank the gentleman very much. All time for 
opening statements of Members has been completed.
    [The prepared statement of Ms. Speier follows:]

    [GRAPHIC] [TIFF OMITTED] T2588A.003
    
     [GRAPHIC] [TIFF OMITTED] T2588A.004
    
    The Chairman. We will turn to our first witness, who is Dr. 
Tami Bond. She is a professor in the Department of Civil and 
Environmental Engineering at the University of Illinois at 
Urbana-Champaign. Dr. Bond's research considers the 
interactions between energy use, the composition of the 
atmosphere, and the global science system.
    We welcome you. Whenever you are ready, please begin.

  STATEMENTS OF TAMI C. BOND, ASSOCIATE PROFESSOR, ARTHUR AND 
   VIRGINIA NAUMAN FACULTY SCHOLAR, DEPARTMENT OF CIVIL AND 
  ENVIRONMENTAL ENGINEERING, UNIVERSITY OF ILLINOIS AT URBANA-
 CHAMPAIGN; VEERABHADRAN RAMANATHAN, VICTOR ALDERSON PROFESSOR 
 OF APPLIED OCEAN SCIENCES, DISTINGUISHED PROFESSOR OF CLIMATE 
AND ATMOSPHERIC SCIENCES, SCRIPPS INSTITUTION OF OCEANOGRAPHY, 
 UNIVERSITY OF CALIFORNIA, SAN DIEGO; DREW T. SHINDELL, SENIOR 
SCIENTIST, NATIONAL AERONAUTICS AND SPACE ADMINISTRATION, NASA 
GODDARD INSTITUTE FOR SPACE STUDIES; CONRAD SCHNEIDER, ADVOCACY 
                 DIRECTOR, CLEAN AIR TASK FORCE

                   STATEMENT OF TAMI C. BOND

    Ms. Bond. Thank you, Chairman Markey and Ranking Member 
Sensenbrenner and members of the committee. Thank you for this 
opportunity to discuss black carbon and its role in climate 
change. I am really honored to be here and to participate in 
the committee's important discussions as you explore a wide 
variety of solutions to clean energy and climate change.
    I have been working on black carbon for about 15 years. I 
do everything from models of emissions in the atmosphere to 
measurements of diesel engines and cookstoves. So, although I 
sit in front of a computer most of the time, I have definitely 
gotten my hands dirty.
    Black carbon is the dark component of smoke. I am going to 
start by giving you an idea of what a powerful climate impact 
it has, putting some numbers on what Mr. Markey said.
    One ounce of black carbon in the atmosphere absorbs about 
the amount of sunlight that would fall on a tennis court. This 
light turns into heat and warms the atmosphere. One pound of 
black carbon absorbs about 650 times as much energy during its 
short lifetime as one pound of emitted CO<INF>2</INF> does 
during 100 years.
    An old diesel truck, not our current regulations, but an 
old diesel truck driving for 20 miles would emit about a third 
of an ounce of black carbon. That is about the weight of two 
nickels. That would heat the atmosphere during its short 
lifetime as much as adding a home furnace to it. Now, after a 
week, that heating is gone because the particles fall out of 
the atmosphere. If they fall on snow, they can warm it and melt 
it.
    Over that same 20 miles, the same truck will emit about 70 
pounds of CO<INF>2</INF>. And that would add five times the 
warming of the black carbon but spread over 100 years. So there 
are two mayor effects: one short, one long.
    Estimates of black carbon ``forcing'' or the atmospheric 
warming today are between 20 percent and 60 percent of carbon 
dioxide's. We have high confidence that atmosphere and snow 
forcing by black carbon and its interaction with sunlight leads 
to warming and is significant in comparison with greenhouse 
gasses. One of the uncertainties, however, is how those same 
emissions change clouds.
    I would like to add an analogy to that of Mr. Markey. 
Reducing black carbon emissions is a short-term solution to 
climate change. It is a bit like applying an emergency brake to 
a car that is out of control. You slow the vehicle quickly, get 
a little time to think, but your vehicle will still run away if 
you don't take your foot off the gas pedal, if CO<INF>2</INF> 
emissions are maintained.
    The estimated emission rate of black carbon is about 8.3 
million tons per year. Total emissions from the United States 
are about 460,000 tons. That is about 5.5 percent of the global 
total. Of this total--that is, the global total--diesel engines 
provide about a quarter. Solid fuels like wood and coal burned 
for home cooking and heating are also about a quarter. Small 
industries are about 10 percent. And open forest and grassland 
burning is the remaining 40 percent.
    There are uncertainties in global emissions. The totals are 
probably underestimated, especially in developing countries. 
However, we are confident that the sources I mentioned are very 
large contributors to global black carbon.
    It is important to note that there are international 
initiatives working on both diesel engines and cookstoves. This 
doesn't mean that they have all the resources they need.
    I have given you a very simple picture. However, sources 
that emit black carbon also emit several other pollutants: 
Cooling particles that reflect light away from the Earth and 
gases that warm the Earth by changing ozone and methane. You 
can think of each source like a bathroom faucet. The mixed 
water can be very warm if you turn on the black carbon or the 
gasses, very cold if you turn on the cooling particles, and the 
net result depends on the balance.
    So sources with high emissions of warming pollutants are 
the most promising targets for reducing warming. Of the sources 
I listed above, diesel engines are the richest in warming 
pollutants by far, followed by residential cooking and heating, 
industrial sources, and, last, open burning of biomass.
    Since the late 1800s, emissions in the United States have 
gradually transitioned from residential wood and coal to 
industry to diesel engines. This development track is common 
through much of the world. In countries at low levels of 
development, black carbon emissions come mainly from solid 
fuels for heating and cooking. In developed regions like the 
United States and Europe, the main sources are diesel engines.
    There are three big drivers of cleaning up black carbon. 
First, technology. Our very first success was in the use of 
pulverized coal boilers to increase coal use and yet reduce 
black carbon emissions at the same time. Second, clean fuels. 
Introduction of natural gas, electricity, and liquified 
petroleum gas has played a large role in cleaning up 
residential emissions. That is just one example. And, finally, 
regulation and government participation in technology 
development, such as the initiative that Mr. Sensenbrenner 
mentioned. These have driven advanced technologies and retrofit 
programs for diesel, for example.
    Now, to confirm that reducing sources rich in black carbon 
will benefit----
    The Chairman. If you could just summarize, please.
    Ms. Bond. I am on my last paragraph.
    To confirm that reducing sources rich in black carbon will 
benefit climate, we have to estimate the net effect of cleaning 
up individual emission sources, our best estimate of cloud 
response to particle emissions, which is very important. I and 
three other scientists are leading a group of about 30 
coauthors in a study to assess those questions, and we expect 
to have a product in June.
    I don't think that all the questions about black carbon 
will be solved by June, but that report should be able to tell 
us which actions can be taken soon and what targeted research 
is needed to evaluate actions in the near future.
    Thank you.
    [The statement of Ms. Bond follows:]

    [GRAPHIC] [TIFF OMITTED] T2588A.005
    
    [GRAPHIC] [TIFF OMITTED] T2588A.006
    
    [GRAPHIC] [TIFF OMITTED] T2588A.007
    
    [GRAPHIC] [TIFF OMITTED] T2588A.008
    
    [GRAPHIC] [TIFF OMITTED] T2588A.009
    
    [GRAPHIC] [TIFF OMITTED] T2588A.010
    
    [GRAPHIC] [TIFF OMITTED] T2588A.011
    
    [GRAPHIC] [TIFF OMITTED] T2588A.012
    
    [GRAPHIC] [TIFF OMITTED] T2588A.013
    
    [GRAPHIC] [TIFF OMITTED] T2588A.014
    
    The Chairman. Thank you, Dr. Bond, very much.
    Our second witness is Dr. V. Ramanathan. He is a 
distinguished professor of atmospheric sciences at the Scripps 
Institution of Oceanography at the University of California, 
San Diego, and the director of the Center for Atmospheric 
Sciences. He is the chair of the National Academy of Sciences 
panel that provides strategic advice to the U.S. Climate Change 
Science Program.
    We welcome you, sir. Whenever you are ready, please begin.

              STATEMENT OF VEERABHADRAN RAMANATHAN

    Mr. Ramanathan. Chairman Markey, Ranking Member 
Sensenbrenner, and other honorable members of the committee, I 
am truly honored by this.
    My own work is using autonomous----
    The Chairman. Is your microphone on down there?
    Mr. Ramanathan. I think so. Can you hear me now?
    The Chairman. Yes.
    Mr. Ramanathan. Can I start over or get 20 seconds?
    The Chairman. All right.
    Mr. Ramanathan. My own work is using autonomous, unmanned 
aerial vehicles to measure this absorption of sunlight by black 
carbon directly.
    We also use instrumented aircraft like the Gulf aircraft, 
and we have followed black carbon transport all the way from 
China across the Pacific Ocean into the U.S. So these things 
travel long distances.
    We also have stations in the Himalayas and in the Sierras 
to see how the black carbon settling on the snow darkens the 
snows and causes melting. And we have measurements for all of 
these phenomena.
    And the first thing we have to recognize--first of all, I 
completely agree with the opening statement by both the 
chairman and the ranking member. The BC impact, impacts the air 
pollution and health at regional scales--and I will talk about 
that--and global scales, in terms of global warming.
    At the regional scale, black carbon influences cloud 
formation and heats the air around it, disrupts rainfall 
patterns, such as a monsoon in India. And the deposition of 
black carbon on bright snow surfaces darkens ice and snow. And 
this, along with the warming of the air by BC, contributes to 
the warming of the Arctic--my colleague, Dr. Shindell, will 
talk about that--as well as the elevated regions of the 
Himalayan-Tibetan glaciers and snow packs. Thus, black carbon 
is directly linked with the water budget of the planet.
    Relating to the global warming effort of BC, current 
estimates show the contribution of BC, black carbon, to the 
heat addition of the planet is as much as 20 percent to 60 
percent of that due to carbon dioxide. The 60 percent value is 
my estimate with Professor Carmichael, in which we constrained 
the global network of instruments and aircraft data.
    As has been mentioned, BC is an important fast-action tool 
in mitigating long-term warming due to greenhouse gases. To 
give an example, reducing black carbon emissions by 50 percent 
today will lead to a 50 percent reduction in the heat trapped 
by them within a few months so that policymakers will witness 
the success of their actions during their tenure. I think it 
would also be a great opportunity to test climate scientist 
theories and models. And it is instructive to compare the 
potential of BC as a mitigation tool with that of 
CO<INF>2</INF> reduction.
    The manmade carbon dioxide blanket weighs a staggering 880 
billion tons. The weight of black carbon in the blanket is a 
minuscule 250,000 tons, except it almost has half the effect of 
CO<INF>2</INF>. However, we have to point out, CO<INF>2</INF> 
reductions are required to avert large warming. For example, we 
are currently adding about 35 gigatons every year, and it is 
growing at a rate of 2 to 3 percent. At this rate, we will be 
adding another 1,500 billion tons of CO<INF>2</INF> during this 
century. So black carbon reduction should be thought of as 
complementary and not as supplementing CO<INF>2</INF>.
    As has been pointed out, two important targets for 
reductions of black carbon are those generated by diesel and BC 
generated by cooking with biomass fuels. For example, I am 
working with a village in India, trying to understand replacing 
the cookstoves, the traditional cookstoves, with nearly smoke-
free cookstoves, how much climate warming we would avoid.
    So the last thing I want to conclude, the science of black-
carbon-climate link we have to understand is relatively new, 
compared to what we have spent--over 4 or 5 decades--
understanding the issue of CO<INF>2</INF>. And, as a result, 
every month we are finding out yet another way in which black 
carbon impacts the environment. So this is the science in the 
making.
    I just want to give you three major examples. The 
interaction of black carbon within clouds and the impact on 
precipitation and cloud extent--this might emerge as one of the 
bigger issues. The role the black carbon atmospheric heating 
and ice/snow darkening, its role on the observed warming and 
melting of the alpine glaciers and snow packs. It is an 
emerging science. Lastly, impact of black carbon on the Arctic 
warming and sea ice retreat, which I think will be covered by 
my colleague, Dr. Shindell.
    Thank you so much.
    [The statement of Mr. Ramanathan follows:]

    [GRAPHIC] [TIFF OMITTED] T2588A.015
    
    [GRAPHIC] [TIFF OMITTED] T2588A.016
    
    [GRAPHIC] [TIFF OMITTED] T2588A.017
    
    [GRAPHIC] [TIFF OMITTED] T2588A.018
    
    [GRAPHIC] [TIFF OMITTED] T2588A.019
    
    [GRAPHIC] [TIFF OMITTED] T2588A.020
    
    [GRAPHIC] [TIFF OMITTED] T2588A.021
    
    [GRAPHIC] [TIFF OMITTED] T2588A.022
    
    [GRAPHIC] [TIFF OMITTED] T2588A.023
    
    [GRAPHIC] [TIFF OMITTED] T2588A.024
    
    [GRAPHIC] [TIFF OMITTED] T2588A.025
    
    [GRAPHIC] [TIFF OMITTED] T2588A.026
    
    [GRAPHIC] [TIFF OMITTED] T2588A.027
    
    The Chairman. Thank you, Doctor, very much.
    Our next witness is Dr. Drew Shindell, a senior scientist 
at NASA's Goddard Institute for Space Studies. He is also a 
lecturer in the earth and environment sciences at Columbia 
University. Of his many distinctions, he received a National 
Science Foundation Antarctic Service Medal and a Scientific 
American Top 50 Scientists award.
    We welcome you, sir. Whenever you are ready, please begin.

                 STATEMENT OF DREW T. SHINDELL

    Mr. Shindell. I would like to first thank the committee for 
the opportunity to testify this morning.
    Direct observations of climate seldom reveal cause and 
effect, so that the influence of black carbon on surface 
temperature must be estimated using models as well as data. 
Several independent methods find broadly similar results, with 
an overall global mean warming due to black carbon that is 
about 15 to 55 percent of the warming due to carbon dioxide, as 
we have heard. Black carbon has likely had even larger regional 
effects, especially in areas such as the Arctic, due to its 
strong impact on snow and ice.
    Black carbon affects other aspects of climate in addition 
to surface temperature. Several studies have indicated that the 
large amounts of smoke and haze observed near Asia can cause 
shifts in a monsoon.
    The physical mechanism linking black carbon to changes in 
precipitation is clear and operates worldwide. Unlike 
temperature changes, shifts in precipitation nearly always have 
negative net economic impacts, as long-term infrastructure has 
quite sensibly been designed for norms over past decades.
    Actual policies will usually impact emissions of many 
compounds simultaneously, since incomplete combustion produces 
substantial amounts of other particulates and gases in addition 
to black carbon. Hence, it is necessary to examine the net 
impacts of all emissions from a particular activity on climate. 
Furthermore, emissions of pollutants also affect the quality of 
the air we breathe. Policies typically treat the air quality 
and climate effects separately, however.
    Encouragingly, research has shown that the optimal 
strategies to reduce black carbon and the ozone precursors 
carbon monoxide, volatile organic compounds, and methane are 
similar whether the goal is improving air quality or limiting 
global warming. This argues for a stronger emphasis on 
reduction in emissions of these pollutants in air quality 
policies, for which there would be a climate co-benefit, and in 
climate policies, for which there would be an air quality co-
benefit.
    Research suggests that strategies to simultaneously improve 
air quality and mitigate global warming differ from region to 
region. In the U.S., reductions in overall emissions from 
diesel vehicles appear to achieve both goals, with the 
substantial part of the benefits coming from reduced black 
carbon. More generally, increases in fuel efficiency coupled 
with reductions in emissions from both gasoline- and diesel-
fueled vehicles show the most positive results for climate and 
air quality.
    In contrast, many countries in the developing world use 
fuel with high sulfur content, as the U.S. did years ago. 
Hence, in developing Asia, where particulate emissions are 
larger than in any part of the world, reductions in emissions 
from both industrial processes and residential cooking stoves 
offer ways to simultaneously improve air quality and mitigate 
warming.
    The health benefits that would be gained from reductions in 
particulate and ozone concentrations are clear from 
epidemiological studies. While these benefits are most strongly 
felt in nearby population, long-range transport of air 
pollution can also be substantial. And, hence, the health 
impacts of air pollution are not simply a local issue. Climate 
impacts extend even more broadly.
    Particulates also impair visibility, with detrimental 
impacts on tourism and recreation. Elevated levels of ozone 
cause damage to plants, leading to economic losses from reduced 
agricultural and forestry yields and decreased food security. 
Many projects to control black carbon, carbon monoxide, 
volatile organics, and methane emissions may therefore have 
higher benefits than costs, even without including any value 
from reducing warming. For example, both State and Federal 
diesel emissions regulations have shown human health benefits 
five times or more than the cost of implementing the 
regulations.
    Air pollution leads to $70 billion to $270 billion in 
damages per year in the United States alone. So there is 
clearly a great deal of potential for co-benefits, including 
health care cost savings.
    Though further research is clearly needed to reduce 
uncertainties, we can already conclude that reductions in 
emissions of black carbon are likely to be a useful component 
of strategies to mitigate climate change. Realistic emissions 
reductions would affect several types of particles and gasses 
and, thus, require a careful analysis of their net impact.
    In summary, while there is more to learn, several things 
are already clear: Reductions in emissions of products of 
incomplete combustion will virtually always improve health. And 
by targeting emissions rich in black carbon, carbon monoxide, 
volatile organic compounds, and methane, many options are 
available that will simultaneously mitigate climate change.
    Thank you.
    [The statement of Mr. Shindell follows:]

    [GRAPHIC] [TIFF OMITTED] T2588A.028
    
    [GRAPHIC] [TIFF OMITTED] T2588A.029
    
    [GRAPHIC] [TIFF OMITTED] T2588A.030
    
    [GRAPHIC] [TIFF OMITTED] T2588A.031
    
    [GRAPHIC] [TIFF OMITTED] T2588A.032
    
    [GRAPHIC] [TIFF OMITTED] T2588A.033
    
    [GRAPHIC] [TIFF OMITTED] T2588A.034
    
    [GRAPHIC] [TIFF OMITTED] T2588A.035
    
    The Chairman. Thank you, Doctor.
    And our final witness is Conrad Schneider. He is the 
advocacy director of the Clear Air Task Force, a nonprofit 
environmental research, education, and legal advocacy 
organization.
    We welcome you, sir.

                 STATEMENT OF CONRAD SCHNEIDER

    Mr. Schneider. Thank you, Mr. Chairman, Ranking Member 
Sensenbrenner, and members of the committee. My name is Conrad 
Schneider, advocacy director of the Clear Air Task Force. And I 
want to thank you personally for the leadership that you and 
this committee have shown on the issue of climate change and 
for the work done in passing the Waxman-Markey bill. I 
appreciate the opportunity to speak with you today regarding 
policy options for reducing black carbon emissions.
    The Waxman-Markey bill made an excellent start in dealing 
with this issue, and we appreciate you revisiting it today 
because it represents a promising approach that deserves 
immediate attention, both in the climate bill and in other 
legislation currently before Congress.
    At the outset of today's hearing, I just want to make one 
thing very clear: Addressing black carbon and the other short-
lived climate forcing agents, such as methane and ozone, is not 
a substitute for enacting comprehensive climate change 
legislation to deal with carbon dioxide emissions. We are going 
to need both and then some in order to address the climate 
crisis.
    I want to try to give a sense of urgency to this hearing, 
as well, and these solutions. Imagine a world in which the 
Arctic is literally melting; that the Arctic Ocean is about to 
become ice-free, we are told; that permafrost is melting, 
potential releasing millennial stores of carbon dioxide and 
methane. And we are searching, globally, we are searching for 
strategies that can counteract this situation almost 
immediately. And we find a strategy that not only can act 
immediately to do so, but it could save hundreds of thousands 
of lives globally.
    We don't have to imagine very much. That is the situation 
we face today. And reducing black carbon is a strategy that can 
deliver those immediate benefits. In fact, some experts 
estimate that black carbon emissions to reduce global warming 
could deliver as much as one to two of the Socolow wedges that 
you all are familiar with--the goals of trying to use a variety 
of different steps to meet the Carbon Mitigation Initiative's 
200-billion-ton goal.
    And, as you have heard, black carbon is not only a climate 
forcing agent, it is a potent, deadly air pollutant. In the 
U.S., we have estimated that diesel particulate emissions alone 
will cause over 21,000 premature deaths this year.
    So black carbon is a win-win for climate and public health, 
but given the tremendous environmental and health benefits of 
reducing it, relatively little is being done in the U.S. or 
globally to actually attack this problem. The previous 
panelists identified diesel engines, cookstoves, and 
agriculture burning as the most controllable sources of black 
carbon. So I am going to focus there today on the policies that 
we can use to attack them.
    Now, last year, due in part to the leadership of 
Representative Inslee, Congress directed the U.S. EPA to study 
the issue of black carbon and report back early next year, 
about a year from now. It is supposed to inventory the sources, 
assess the potential metrics, and identify the most cost-
effective approaches for reductions.
    Now, on one level, the solutions for these source 
categories are pretty simple. For diesel engines, there are 
filters available to trap up to 90 percent of this pollution. 
For cookstoves, the key is replacing existing smoking 
cookstoves with more efficient cookstoves. And for agriculture 
burning, it involves shifting the burning away from the spring 
season and using pyrolysis to turn waste into biochar that 
sequesters carbon and increases agricultural productivity.
    However, all of this is easier said than done. There are 
over 11 million diesel engines in use today without filters, 
tens of millions globally. Half the people on Earth use 
inefficient cookstoves, and unnecessary agriculture burning 
persists in many places.
    For diesels, the debated policies boil down to two things, 
and the kind of things that you don't want to hear, 
necessarily: mandates and money. The U.S. and the EU have 
adopted new engine standards that are going to reduce these 
emissions by 90 percent, but it will take decades before they 
are fully effective. In the meantime, we really need to focus 
on retrofitting the existing diesel fleet with these filters.
    Now, the Waxman-Markey bill directed EPA to exercise its 
existing authority over black carbon. And the lion's share, as 
you have heard, in the United States comes from diesels. But, 
unfortunately, the EPA, under the Clean Air Act, has the 
authority to regulate only 1 million out of those 11 million 
diesel engines. An analysis by MJ Bradley Associates estimated 
that targeting just that million could achieve the climate 
benefits of removing 21 million cars from the road and would 
save approximately 7,500 lives, yet EPA has failed to act.
    On the money side, the Kerry-Boxer bill that passed the 
Senate committee devoted a portion of that bill's allowance 
allocation proceeds to fund the Diesel Emission Reduction Act, 
DERA. DERA passed in 2005 and authorized a billion dollars over 
5 years to clean up diesel. However, it has been chronically 
underfunded. The Recovery Act provided $300 million for DERA, 
but EPA received $2 billion worth of applications for that 
money and is sitting on $1.7 billion worth of project 
applications that could cut black carbon emissions 
significantly today. Additional funding for DERA should be 
included in any jobs bill that passes this year. And since DERA 
expires next year, it should be reauthorized and fully funded.
    In addition, the upcoming transportation bill 
reauthorization offers the opportunity to reduce black carbon 
from diesel construction equipment. We believe that work on 
federally funded transportation infrastructure projects should 
be accomplished with clean diesel equipment paid for through 
the transportation bill funds.
    And Associated General Contractors, the people who own that 
equipment, they agree. Last year, we negotiated a set of joint 
clean construction principles with AGC. Now Representative Hall 
of this committee, with the support of several Members here, is 
championing the effort to see that those principles are 
included in the transportation bill.
    For cookstoves, the Waxman-Markey bill calls for providing 
assistance in foreign countries to reduce black carbon 
emissions and specifically outlines actions to provide 
affordable stoves for developing countries. It notably also 
provides a set of performance standards, which are excellent.
    However, the bill did not allocate any allowances or 
auction proceeds to fund the program. The U.S. should lead in 
the creation of jointly funded international programs to 
develop regionally appropriate strategies to deploy these 
stoves. But they face many other challenges, as well, including 
cultural acceptance of the stoves, the need for on-site 
verification and mitigation, and cheaper stoves that can be 
deployed at scale.
    And, lastly, stemming agricultural fires in the spring when 
Arctic ice and snow is most affected by the deposition of black 
carbon requires overcoming cultural resistance to long-held 
agriculture practices. Black carbon emissions from spring 
agricultural burning in the northern latitudes are highest in 
Eurasia and in North America, in the grain belt. Black carbon 
emissions can transport directly from there into the Arctic, 
darkening the surfaces there and accelerating melting. So these 
fires present a clear target for mitigation.
    So, in conclusion, policies targeting black carbon 
emissions offer a viable climate strategy that can be 
implemented without delay, that will deliver immediate climate 
benefits, using technology that is available today. And, 
moreover, they can deliver important public health protections 
from one of the most potent and widespread air-pollution-
related public health threats.
    Winning these policies will not be easy, but their 
significant benefits make them extremely cost beneficial, and 
they may constitute our best hedge against near-term climate 
impacts.
    Thank you.
    [The statement of Mr. Schneider follows:]

    [GRAPHIC] [TIFF OMITTED] T2588A.036
    
    [GRAPHIC] [TIFF OMITTED] T2588A.037
    
    [GRAPHIC] [TIFF OMITTED] T2588A.038
    
    [GRAPHIC] [TIFF OMITTED] T2588A.039
    
    [GRAPHIC] [TIFF OMITTED] T2588A.040
    
    [GRAPHIC] [TIFF OMITTED] T2588A.041
    
    [GRAPHIC] [TIFF OMITTED] T2588A.042
    
    [GRAPHIC] [TIFF OMITTED] T2588A.043
    
    [GRAPHIC] [TIFF OMITTED] T2588A.044
    
    [GRAPHIC] [TIFF OMITTED] T2588A.045
    
    [GRAPHIC] [TIFF OMITTED] T2588A.046
    
    [GRAPHIC] [TIFF OMITTED] T2588A.047
    
    [GRAPHIC] [TIFF OMITTED] T2588A.048
    
    [GRAPHIC] [TIFF OMITTED] T2588A.049
    
    [GRAPHIC] [TIFF OMITTED] T2588A.050
    
    [GRAPHIC] [TIFF OMITTED] T2588A.051
    
    [GRAPHIC] [TIFF OMITTED] T2588A.052
    
    [GRAPHIC] [TIFF OMITTED] T2588A.053
    
    [GRAPHIC] [TIFF OMITTED] T2588A.054
    
    [GRAPHIC] [TIFF OMITTED] T2588A.055
    
    [GRAPHIC] [TIFF OMITTED] T2588A.056
    
    [GRAPHIC] [TIFF OMITTED] T2588A.057
    
    [GRAPHIC] [TIFF OMITTED] T2588A.058
    
    [GRAPHIC] [TIFF OMITTED] T2588A.059
    
    [GRAPHIC] [TIFF OMITTED] T2588A.060
    
    The Chairman. I recognize the gentleman from Washington 
State, Mr. Inslee.
    Mr. Inslee. Thank you.
    This is really an excellent panel. Dr. Bond, if I had had 
someone like you in college, I would have fulfilled my 
fantasies of becoming a physicist. So, thanks for your 
educational work here.
    First question: Is black carbon a proxy for the health 
benefits of reduction of other emissions associated with fossil 
fuels? If we reduce black carbon, do we get the benefits, 
almost by necessity, of reductions of other emissions? Or are 
they different?
    Ms. Bond. There is a lot of similarity, and there are some 
differences.
    Black carbon is just a component of particulate matter, 
which has severe health impacts. And so you can reduce 
particulate matter and also reduce black carbon, or you can 
reduce particulate matter and if you don't target black carbon 
sources, then don't get the black carbon reductions.
    Now, your question was the other way around. If you reduce 
black carbon, do you always get the health benefits? In fact, 
the health benefits are more clear for black carbon reductions 
than the climate benefits. The climate benefits have some 
uncertainty. There are sources for which we are confident in 
the climate benefit. But the health benefits are always 
existing.
    Mr. Inslee. So let me ask a little different question. If 
we made an investment in our diesel transportation fleet of X 
dollars right now and our interest was on the health impacts, 
would the best investment to be, at least in the short term, 
the filtration systems to capture black carbon and then get 
health benefits associated with that, or would there be a 
better investment for better health impacts?
    Mr. Schneider.
    Mr. Schneider. I will try to take that one.
    The Clean Air Task Force has analyzed the benefits of 
looking at power plant pollution cleanup, diesel pollution 
cleanup, car pollution cleanup from both a health perspective 
and from a climate perspective. And if you factor in, if you 
take into a combination both the health and the climate 
benefits, there is no better investment than in a particle 
filtration system.
    Particulates are the most deadly air pollutant. Black 
carbon may deliver the fastest climate benefits. So, taken 
together--and when you have a technology that can deliver a 90 
percent reduction in the particulate/black carbon, you have a 
real winner for a technology.
    Mr. Inslee. I introduced this black carbon bill, I don't 
know, about a year, year and a half ago, and it seemed to me 
the right thing to do. But since then I have seen a documentary 
showing that the soot on the surface, it was either the Arctic 
or Greenland, and I can't recall which it was, but it showed 
these depressions. The whole sheet of ice I saw had these 
depressions. And at the bottom of the depression, there would 
be this patch of black soot, and I mean black soot, against the 
white ice. And it looked like the entire cap was covered with 
this stuff, at least at the bottom of each one of these little 
melt pools. It caught my attention.
    And I guess the question is, is the albedo effect of black 
carbon, how does that compare to the general climate change 
when it is in the atmosphere? Is it just a small part of the 
problem or a big part of the problem?
    Mr. Ramanathan. Maybe I can answer part of that question.
    If you look at global warming effect of black carbon, this 
albedo effect contributes about 10 percent of the total black 
carbon effect. But if you look in the Arctic or in Alpine 
glaciers, then the darkening effect may be the dominant effect. 
Because black carbon warming comes from trapping sunlight in 
the air. But, locally, in the sea ice and the glaciers and the 
ice sheets, the darkening effect may very well be the dominant 
effect.
    Dr. Shindell.
    Mr. Shindell. Thank you.
    We believe that anywhere where there is snow and ice, the 
effect you have been describing occurs. In places like the 
Himalayas, the results are somewhat more ambiguous because you 
have a fair amount of wind-blown dust and other types of 
pollutants that are already deposited on those glaciers. So it 
almost certainly contributes, but how much it contributes there 
is more ambiguous.
    In the Arctic, which tends to be very far from, say, dust 
sources, the snow is very clean, so the effect is extremely 
large. And there we believe that it is quite possible that 
black carbon is responsible for over half of the accelerated 
melting we have seen in the last few decades, or at least over, 
say, the 20th century.
    Mr. Inslee. Do you mean the albedo effect from the black 
carbon?
    Mr. Shindell. Well, it is both the effect of black carbon 
in the atmosphere and the albedo effect. And the effect on 
albedo is obviously very local, but even the effect in the 
atmosphere has an extra powerful impact on the Arctic because 
most of the sources are from the Northern Hemisphere 
industrialized or developing nations, which means that their 
emissions are closer.
    So, unlike CO<INF>2</INF>, which just drifts around 
uniformly everywhere, the black carbon being physically emitted 
in the Northern Hemisphere, fairly close to the Arctic, allows 
it to have an even stronger impact on the Arctic than it does 
on the global average.
    Mr. Inslee. Mr. Schneider, you pointed out what sounded 
like a potential imperfection of the Waxman-Markey bill, which 
we don't believe there could ever be an imperfection on that 
work of art. But you did make reference to, I thought that the 
provision that would implement a regulation on black carbon 
would apply only to 1 million of the 11 million units. Could 
you explain that?
    Mr. Schneider. I will. And thank you very much. And let me 
just offer another opportunity to thank and commend the 
committee and the people who worked so hard on that bill. And I 
appreciate you all revisiting the issue today, hopefully to 
maybe strengthen the black carbon provisions, which are already 
the best in any bill.
    Mr. Inslee. And, by the way, if there is an imperfection, 
it is not those two gentlemen's responsibility. I will take 
full responsibility.
    Mr. Schneider. I suspect that when----
    The Chairman. I actually praised Congressman Inslee in my 
opening statement for the provisions. So I think he deserves 
full credit for everything that is----
    Mr. Inslee. Including the imperfections.
    Mr. Schneider. The bill basically directs EPA to exercise 
its existing authority over all sources of black carbon, the 
largest, nearly 60 percent of that in the U.S. being diesel. So 
it is sort of directing EPA to deal with diesel.
    And the imperfection, if there is one, is not in the 
Waxman-Markey bill. It is in the Clean Air Act, which gives EPA 
only the authority, in terms of in-use diesels, to deal with a 
very small slice of those engines. The only provision in the 
Clean Air Act that allows that is one called--it is a rebuild 
provision. Whenever any truck engines are rebuilt--that is, 
taken from an old, rebuilt to be in a new--EPA has the 
authority to issue more stringent emissions standards for those 
rebuilt engines.
    And in this country, over the next decade, we project that 
only about 1 million vehicles will rebuild in that way. So if 
EPA exercised, as you directed them, to use the full extent of 
their authority, they could only cover that 1 million set of 
rebuilding engines over that period of time, whereas the in-use 
fleet is 11 million. That would include all the other trucks 
that don't get rebuilt and would include all the off-road 
engines: The construction equipment and other engines. EPA 
right now has no authority over those, and the courts have said 
so. I mean, it is very clear that that is constrained.
    So one of the first things we would say that needs to be 
fixed in that regard is to give EPA broader regulatory 
authority to require filters and after-treatment devices on the 
existing fleet. And we promote the idea of doing that in 
conjunction with incentives to turn over the fleet faster and 
potentially economic incentives, like in the Diesel Emission 
Reduction Act, to pay for some of that.
    But one of the things that is holdings us back right now is 
we have this golden opportunity to deal with these sources, 
which are public health threats and climate forcers, but EPA 
really can't go much further.
    I don't mean to be overly critical, but I would point out 
also that, even with respect to the engine rebuild rule, EPA is 
aware that that authority exists and is studying the question, 
looking at the question of whether to exercise that authority. 
And we hope they will shortly, but to date they have not.
    Mr. Inslee. What is the best assessment of the costs 
associated with that that has been done already?
    Mr. Schneider. In terms of the rebuild rule itself?
    Mr. Inslee. Yes.
    Mr. Schneider. I believe that to deal with those million 
engines, depending on what--not every engine can take the most 
advanced type of filter, so that you have a mixture of 
solutions. It is several billion dollars, with a ``B,'' to 
comply with that.
    Mr. Inslee. All right.
    So, next question: To what extent is black carbon an issue 
on our coal-fired utility plants? We have talked about diesel. 
Is black carbon an issue at all with coal-fired utility plants?
    Ms. Bond. Not to the best of our knowledge. The combustion 
in a coal plant is good enough that it burns out all the black 
carbon. And that has changed in the last hundred years, but 
that has been one of our successes. So there may be particulate 
matter, but most of it isn't black.
    Mr. Inslee. And I just was reading a little blurb today 
about a U.N. program to improve residential stoves, 
essentially, in the sub-Saharan African area, to try to get the 
more efficient stoves. Is this a viable strategy? On an 
international basis, what would it take to really have a 
meaningful system to improve the efficiency of these?
    Open question.
    Ms. Bond. I will say something. I am sure Dr. Ramanathan 
will want to speak, as well.
    Two answers, as any good scientist would give you, or any 
good economist. First, yes, it is, because people want new 
technologies, people want clean cooking. And of course there 
are some cultural barriers, but it is definitely a potential 
solution.
    The second answer is that you have to be careful how you do 
it. We have learned quite a lot about how to improve 
residential combustion. That includes both what to do and what 
not to do. What not to do is to parachute in, drop a bunch of 
improved stoves, and hope that people accept them.
    But there is a lot of history in that field. And, as 
mentioned, you need to work with the communities, follow up, 
and, above all, think big-scale. And that involves both 
technological and implementation innovation.
    Mr. Ramanathan. I will just follow that for India and South 
Asia. In India alone, 150 million households use mud stoves, 
using firewood. There has been a long history of trying to 
replace this, and, by and large, they have failed.
    And we got into this just since last year. We have taken a 
small village, and the first thing we found was that 
technologies were not ready. I mean, they were sort of built in 
a laboratory and really didn't adapt to village conditions. And 
just in the last year or two, there are several companies, 
Shell and British Petroleum have come with improved stoves. 
There are also some U.S.-based companies. And they, we find 
now--we have tried five of them. And I am not allowed to give 
the names yet because we will publish the data.
    At least one of them seems to do the job. The women are 
happy with it. I am happy with it because it cuts down the 
black carbon emissions. So it is a convergence of the 
scientific interest of reducing and cooking with something 
which is adaptable to local taste. So I think the technology is 
almost there.
    The last thing I want to mention is that India has now 
started on a major cookstove program nationwide. And it is not 
clear which way that program is going.
    Mr. Inslee. You mean not clear whether it is going clean or 
unclean?
    Mr. Ramanathan. No, I mean to cleaner cookstoves, India's 
program towards cleaner cookstoves.
    Mr. Inslee. Got it.
    I am going to ask one more. This question is a little 
farther afield of this hearing, but I will ask Dr. Bond.
    I have experienced a lot of frustration at the lack of 
understanding in a lot of places, including the U.S. Congress, 
about science associated with climate change, ocean 
acidification, black carbon, and the like. And one of the 
sources of frustration is that the information the scientific 
community has does not get shared with Members of the U.S. 
Congress. They just don't have an appreciation, for one reason 
or another, because they haven't heard from scientists enough, 
frankly.
    I am surprised that--you know, we have people walking 
around here today, the U.S. Capitol, who are aggrieved, and 
they are petitioning their government for redress of grievances 
in a certain sort of direction. But I haven't seen scientists 
up here demanding action from the U.S. Congress, except in the 
most restrained, polite, academic, almost silent ways.
    If I was a scientist and I knew what, frankly, a lot of 
scientists know in this country is going on out there in the 
planet, in the climatic systems, and in the oceans, I would be 
in somebody's grill about that, telling them that we need 
action. And yet you just don't see that from the scientific 
community, with very few exceptions.
    We got a letter from, I think, 250 scientists last week I 
read, saying, ``Wake up and smell the roses. This problem is 
still there, even though there were some nasty e-mails out of 
England.'' But that is about it--a letter, not a person laying 
down on the tracks.
    Why doesn't that happen? Should it happen? And how do we 
engage the scientific community to be more sharing of the 
information they have when it needs to be shared?
    I am focusing on you, Dr. Bond, because you are an educator 
and you are responsible for the future crop of scientists that 
we are going to depend upon.
    Ms. Bond. Thank you, Mr. Inslee.
    I think it was just Monday when I told my air quality 
modeling class that some of them should run for office. So I 
hope that helps.
    Mr. Inslee. That would be great, just not against me.
    Ms. Bond. You are well-established enough. I think I voted 
for you when I was at University of Washington.
    Mr. Inslee. Well, I appreciate that.
    Ms. Bond. At any rate, this is a difficult question, and it 
has to do with the nature of scientists and how they approach 
science.
    If you have an action outcome, one is almost afraid that 
you will affect the science, because you are supposed to look 
at it dispassionately. And so, how we conduct our business, 
99.9 percent of the time we must step back from what we want 
the outcome to be. We are not allowed to want an outcome.
    And perhaps that leads to a disconnect between us and the 
people like you and like the rest of the committee who are able 
to put that science into action so wonderfully, to think of so 
many measures, as Mr. Schneider outlined, to implement action 
in society.
    Ms. Bond. I don't have a good answer for you. I can't 
advise the scientific community to become more passionate 
because they want to be very careful, and that is a very 
important component of the scientific method. But I can say 
that if you perhaps had discussions like this one, or even more 
informal discussions in which there was mixing between the 
committee, like yourself, and a group of scientists, that that 
communication might flow a little more easily.
    Mr. Inslee. Well, I will just take this one opportunity to 
encourage the scientific community to figure out a way to be 
dispassionate objectively, but passionate about sharing the 
information they do have with the people who can give effect to 
those policies. And I think that is possible in the human 
intellect to do both of those things.
    And if we don't have the scientific community doing that 
right now, we are not going to solve this problem because 
people, frankly, won't know about it. And this is great to have 
our committee doing this, but if we don't have scientists 
getting people and shaking them by the collars to get them to 
understand how significant this problem is, people are 
sleepwalking over a cliff. And frankly, the scientific 
community are the people vested with the intellect and 
knowledge who have the ability to get people to wake up. So I 
am just pleading with you, as members of the scientific 
community, to try to engage your members and colleagues in an 
effort to educate the U.S. Congress, because I think the moment 
demands it, and we don't have a lot of time.
    Thank you.
    The Chairman. I thank the gentleman very much.
    Let me ask this question: The temperatures in Alaska have 
warmed six degrees Fahrenheit since 1950. Could any of you 
comment on the role that black carbon has played in terms of 
the changes that are occurring in Alaska or in the Arctic?
    Mr. Shindell. That is something that, as I mentioned in my 
statement, cause and effect is very difficult to understand 
simply from observations because you only have one way that the 
real world happened to behave. So what has been happening that 
is distinct since the 1950's, while concentrations of 
CO<INF>2</INF> have been rising steadily, concentrations of 
different types of particulate have been changing, with time--
after the Clean Air Act some have gone down--and in different 
locations. So we can identify the pattern and try to attribute 
cause and effect to those. The difficulty there is that the 
effect of sulfate, which is something we have controlled well 
because of acid rain, looks very similar to the pattern of 
black carbon.
    So what we can see is that, in these kind of studies, more 
than half of the rapid warming in the Arctic is attributable to 
particulate, but some of that is due to a reduction in sulfate 
and some due to increases in black carbon, both of which have 
been taking place largely in the last 30 years. So it is very 
hard to really separate the two. Probably a third to a half, or 
slightly more, is the best number.
    The Chairman. Dr. Ramanathan.
    Mr. Ramanathan. I think just to echo what was said, we have 
been doing this air pollution reduction almost to speed up the 
warming. We talked about the smoke in the blanket, the sulfates 
and other aerosols act like mirrors on the blanket reflecting 
sunlight and shielding the greenhouse warming.
    So since 1975, we have decreased the sulfate pollution 
quite a bit, almost 25 percent globally, but just in the Arctic 
nations, the reductions in North America and Europe is almost 
50 percent. So the unmasking of the warming is definitely 
contributing to the Arctic warming.
    The second thing that has been contributing to the warming 
is that fossil fuel black carbon has increased. Not all black 
carbon is the same. The biomass black carbon cools a lot less 
compared to fossil fuel black carbon. So there are three things 
which are happening at the same time to contribute to the 
Arctic and the Alaska warming: One is the increase in the 
greenhouse gases; reduction of sulfur pollution and unmasking 
the warming; and the third is increasing the fossil fuel black 
carbon. So what fraction that is I have to leave it to modeling 
scientists like Dr. Shindell.
    The Chairman. Any other comments?
    The Congress, Mr. Schneider, is moving towards the 
encouragement of all electric vehicles, plug in hybrids. Could 
you talk a little bit about that trend and the role that that 
could play in reducing black carbon?
    Mr. Schneider. Sure. First of all, a lot of the discussion 
in this country around electric vehicles and plug in hybrids is 
in the light-duty sector. We don't have a lot of diesel 
vehicles in the light-duty sector here as in other countries, 
and particularly EU. So a conversion of the light-duty fleet to 
more electric vehicles and more plug in hybrids is critical 
with respect to the reduction of greenhouse gases, but probably 
won't make much of a difference with respect to black carbon 
reductions.
    Representative Sensenbrenner has a bill--it passed the 
House--that talks about hybridizing more heavy-duty vehicles, 
and that is a strategy that over a long period of time, if it 
was able to be successful and all the R&D and so forth worked, 
could have a benefit. But the technology immediately that could 
be implemented on heavy-duty diesels where most of the black 
carbon is coming from in this country really is the 
installation of the filters that I described.
    So these are all complimentary strategies, and it is 
important to look at which sector and what problem you are 
trying to address, but I think primarily the electrics and plug 
hybrids would be addressing greenhouse gasses from the light-
duty automotive sector.
    The Chairman. The Recovery Act, the stimulus package from 
last February, included $300 million for projects to reduce 
diesel exhaust resulting in replacement of old dirty engines 
with new cleaner ones and in retrofitting engines to capture 
black carbon and other pollutants. There is still more to do.
    Could you outline the remaining needs in the United States 
and what we can do to reduce black carbon quickly and 
effectively?
    Mr. Schneider. Well, first of all, let me commend everyone 
who supported those provisions in the Recovery Act. That is 
probably the biggest breakthrough in terms of diesel retrofit 
money that there has been since DERA was passed. DERA was 
authorized at $1 billion. It has typically been funded in the 
annual appropriation of EPA at around $50 million to $60 
million, but in the Recovery Act, as you said, it got $300 
million. And as I said in my testimony, for that $300 million, 
the EPA received $2 billion worth of applications. So that 
really demonstrates that the demand is out there, that people 
want to participate in the program, both in terms of 
replacement and retrofits, but EPA is sitting on about $1.7 
billion worth of applications. And their internal review 
suggests that about $1 billion of those are very high quality.
    So we have suggested that in any jobs packages that move 
that include spending, that perhaps, like the Recovery Act, 
more money could be devoted to the Diesel Emission Reduction 
Act. And EPA's message is, we can move $1 billion worth of 
these immediately because we have the applications sitting at 
our desk. And that would be probably be the fastest thing 
because the idea of the Recovery Act and the Jobs Act is to get 
the money out quickly to create the jobs. This type of DERA 
investment was estimated by Key Bridge Research to generate 
about 19,000 jobs per $1 billion invested, which is very 
favorable when you look at the average of the Recovery Act. So 
this is a win-win-win: It is a climate win. It is a public 
health win. It is a jobs win. So probably the most immediate 
thing that could be done is more funding.
    The Chairman. Who won the $300 million, Mr. Schneider?
    Mr. Schneider. How do you mean?
    The Chairman. In terms of the $300 million, you said there 
was $1 billion worth of applications, who were the winners?
    Mr. Schneider. First of all, there were a diverse set of 
winners. Applicants included public entities, included public-
private entities. So, for example, a public entity, that might 
be a school district that wanted to retrofit school buses and 
not only protect the community, but protect the kids on the bus 
from the fumes on the bus. It would include municipalities that 
wanted to retrofit their transit buses. It included contractors 
who wanted to retrofit their construction fleets, and there was 
some success in terms of those types of awards.
    There were other awards in which the people used the DERA 
money almost as a Cash-for-Clunkers type of situation where 
they were able to replace existing older vehicles, scrap the 
older ones and bring in ones with a new, cleaner technology. So 
that would include some private fleets, some State government 
fleets, and some fleets that work on contracts for State 
governments. So there was a whole variety of folks in every 
State of the Union I believe that were able to----
    The Chairman. What has been the results in terms of the 
implementation of the programs that the $300 million have 
incentivized?
    Mr. Schneider. Well, first of all, I think EPA is trying to 
calculate right now what the emissions benefits have been from 
that, and they can do that because the applications are quite 
detailed. But that money was able to be awarded very quickly. 
It is a reimbursement program, so it will take a little time to 
get the money out, but the orders came in and those fleets were 
transformed. I think that is the good news, is that many of 
those fleets were able to take advantage of that. And there 
have been announcements around the country where kids are 
riding cleaner buses to school, people are riding cleaner 
transit buses to work. Ferries have been retrofitted so that 
when they pull into their dock, the black smoke doesn't 
infiltrate the shore. All of these things have been 
accomplished through the Recovery Act.
    The Chairman. So I should ask the EPA then to give me 
their----
    Mr. Schneider. Their assessment of that, yes.
    The Chairman [continuing]. Report in terms of how 
successful the $300 million has been. You said that for $1 
billion, it would create how many thousands of jobs?
    Mr. Schneider. Nineteen thousand.
    The Chairman. So, theoretically, then 6,000 jobs were 
created with the $300 million.
    Mr. Schneider. Correct.
    The Chairman. So I think it is important for us to get the 
information on that as well because, as you said, it is win, 
win and win. Thank you.
    Again, you each, I think, made some reference to the fact 
that acting on this black carbon sector should not in any way 
reduce our activities to reduce CO<INF>2</INF> in general. So 
could each one of you take 30 seconds to succinctly make your 
own point on that subject?
    Let me go to you, Dr. Bond.
    Ms. Bond. The fact that we should not reduce CO<INF>2</INF> 
endeavors because of black carbon? We have----
    The Chairman. No, that we should not reduce our efforts to 
reduce the CO<INF>2</INF> because we are also working on the 
carbon issue.
    Ms. Bond. Correct. I think Mr. Schneider said it best; we 
need both and everything else that we can think of.
    Right now, we are in a position where we need to act 
quickly. We don't have the 50 years it will take to come up 
with new technologies to reduce atmospheric forcing. And so 
black carbon is a quick solution, but we will still be left 
with the bill after putting CO<INF>2</INF> into the atmosphere. 
We can't afford to miss either opportunity.
    The Chairman. Dr. Ramanathan.
    Mr. Ramanathan. It is important to recognize that black 
carbon reduction is not supplementing our prevention efforts to 
reduce CO<INF>2</INF> simply because we are adding 35 billion 
tons of carbon dioxide every year, and it is increasing at the 
rate of 2 to 3 percent. If we don't do anything about 
CO<INF>2</INF> emissions, the CO<INF>2</INF> concentration 
alone in this century can be double, and the warming from that 
added CO<INF>2</INF> can exceed 2 degrees. So there is nothing 
BC reductions is going to stop this. The BC reduction is more a 
short-term gain to slow down the climate change. Ultimately, 
that climate change is from CO<INF>2</INF>, and we have to 
reduce it. Thank you.
    The Chairman. Dr. Shindell.
    Mr. Shindell. Well, in the nineties, the U.K. introduced a 
public health law that said that anybody emitting black smoke 
could be deemed a public nuisance, meaning legally actionable. 
So this led to the City of London suing the London Underground 
over a power plant emitting black smoke, which they got out of 
by claiming it was brown.
    And I bring this up because the interesting thing about 
this, as well as being amusing, is this was the 1890s, not the 
1990s. And we have known for a long time about the public 
health impact, and black carbon should be dealt with because it 
is a public health impact, whether or not it had any climate 
impact. There is an extra impetus now because climate is such a 
severe problem. And I don't even like the expression that this 
buys us time because we really don't have any time on the 
CO<INF>2</INF> issue either. That problem is coming down the 
road; it is simply a different time scale.
    That problem, since CO<INF>2</INF> accumulates in the 
atmosphere and lasts in the atmosphere for centuries, that 
problem will be with us for a long time, even if we begin to 
address it right away. And so addressing black carbon and the 
other short-lived pollutants can help, but really has to be 
side by side with already immediate action on CO<INF>2</INF>.
    The Chairman. Thank you.
    Mr. Schneider.
    Mr. Schneider. Mr. Chairman, I like your metaphor about the 
house payments, down payment and monthly payments. We have a 
lot of experience in this particular area right now; if you 
make a down payment and fail to make the monthly payments, you 
know what happens. You get a foreclosure. And if we act on 
black carbon and make that down payment but we fail to make the 
monthly payments we need on greenhouse gases, our project will 
fail. And maybe we theoretically have bought ourselves a few 
years, but we will have squandered that opportunity, that down 
payment, if we don't follow through and make the necessary 
reductions in greenhouse gases. It will take, as I said, both--
and in order to reach the target levels that people say will 
avoid the worst effects of global warming.
    The Chairman. By the way, I wanted to tell you, Dr. 
Ramanathan, the reason we are having this hearing is I read 
this brilliant article that you had in Foreign Affairs. And 
from a public education perspective, if I could have 435 
Members of Congress read it, I think that we would have a 
different reaction to the actions that we have to take and the 
recommendations for actions that we have to take to solve the 
problem but also why it is a smart way to go because it is 
something that can happen relatively quickly and have a big 
payoff as well.
    If I could go to India for a second, and maybe you could 
expand a little bit more, Dr. Ramanathan, talk a little bit 
more about India and other countries and their cooking devices 
and what strategy you would recommend to be implemented. And 
what percentage of all black carbon comes just from those 
cooking mechanisms that are used in third-world countries?
    Mr. Ramanathan. In fact, some of the statistics I am going 
to give you come from the pioneering studies of my colleague 
sitting to my right. But we have verified it with observations 
collecting isotope data of black carbon. It turns out at least 
two-thirds of the black carbon over South Asia, which includes 
India, Pakistan, Bangladesh, Nepal, comes from biomass burning 
in terms of cooking stoves.
    The Chairman. Did you say two-thirds from those countries 
or two-thirds for the whole world?
    Mr. Ramanathan. Two-thirds from those countries. If you 
look at the total emissions from India, about two-thirds is 
from biomass burning. I know my own grandmother cooked with 
these cook stoves. And they do that because the food from that 
is the most delicious at least I have ever eaten, just like the 
smoked salmon here. So that is the reason for the difficulty 
changing that to LPG stoves and others.
    But that was the reasons given by all of the nonprofits 
with which I have interacted. But our experience based on this 
1 year in this selected village is that the women are tired of 
cooking with these traditional mud stoves. It simply takes a 
long time to collect the fuel, and it is a lot of work.
    And so I think the communities, at least the communities I 
have worked with, are ready. We are working with the most 
densely populated part of India. It is called the Indo-Gangetic 
Plain. Over 600 million live there.
    And the other beautiful thing which is happening is the 
Indian Government has realized this is a development issue, a 
health issue. And now I have teamed up with some economists at 
Berkeley and Duke to show that it is also contributing to 
agriculture decrease of the yield. So all of this is coming 
together. And also the realization it may be impacting the 
glaciers is also bringing in a lot of communities together.
    So my personal feeling is the timing is really perfect for 
a major bilateral collaboration between U.S. and India to take 
it to the next stage.
    The Chairman. And what is the next stage? How can Americans 
change Indian cooking habits?
    Mr. Ramanathan. I think the change can happen, my feeling, 
is through technology, transfer of the stoves, and there are 
various ways to do that. And there are also ways we can remove 
the black carbon from the chimneys, and so let them use. And 
the third is, of course, funding. Those three.
    And the fourth I want to mention, the key thing is what we 
are doing; we have to document how much of the health we are 
saving, exposure studies. And we have to document how much 
global warming benefit will you get. My personal calculation 
suggests removing 1 ton of black carbon in those villages will 
have the same effect as removing thousands of tons of carbon 
dioxide, in terms of global warming. And these are theoretical 
calculations. So there are a number of scientific engineering, 
and just the question of giving loans to 150 million. So there 
are a variety of ways in which bilateral collaboration could 
just push it to the front page.
    The Chairman. Thank you.
    The Chair now recognizes the gentleman from Missouri, Mr. 
Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman.
    I apologize, I am running between committees. I always like 
this committee and try to get here under almost any 
circumstances because of how significant it is.
    I walked in on this conversation. My family is in Tanzania, 
Arusha, about 400 miles south of Nairobi and at the foot of 
Mount Kilimanjaro. I stood out one evening with one of my 
relatives, and we looked up at the moon. And we could actually 
see the outline of craters. And I said to him, you are 
fortunate in many ways over the Western World because there is 
no pollution. I think, in Arusha, average income is $1,500 a 
year; there may be 10 cars. I mean, if I am underestimating, 
let's say 100 cars on the high side, and yet I get on this 
committee and start learning about the soot that is there 
because my cousins cook outside. I mean, everybody is cooking 
outside. In fact, my cousin, believe it or not, in Africa is 
running a barbecue business, and so people line up outside, and 
nobody is thinking about what is going on.
    But the concern I have is, it is low-hanging fruit. We can 
probably eliminate that intrusion into the atmosphere, black 
carbon, but how do we do it? It is something that we know we 
can do if we can just change the culture and also provide some 
kind of way for cooking that does not pollute, but it is going 
to cost money. I am thinking about my cousin or any of my 
relatives, they would easily probably go to another form of 
cooking if they could afford it.
    And so, in the absence of having the money, what do we do? 
I mean, is it something that the United States and the 
polluters, the big polluters--India, China, Europe--is that our 
responsibility, or are there any suggestions? I will go tell 
them. You tell me what to do, and I will go tell them. I know 
the mayor. Anybody.
    Ms. Bond. First of all, this is a big problem, of course. 
This is about half the people in the world. And there are 
places to target first to move rapidly. One of those areas is 
high-population density where that kind of cooking leads to 
high concentrations and impacts on quite a lot of people. And 
so it is easier to deliver to those groups of people than it 
would be to deliver to your cousin, who has a barbecue at the 
foot of Mount Kilimanjaro--forgive me if I have gotten your 
geography a bit wrong.
    Mr. Cleaver. No, you are right.
    Ms. Bond. Now, Mr. Markey asked about the role of the 
United States. There is some funding needed, but we are also in 
a really good position to develop enabling technologies. For 
example, we find that a better stove can be made not by making 
a great stove here and delivering it there or by paying them to 
make a stove, but by developing capability to build mass 
production for a combustion chamber so that people there can 
build their own stoves, but the critical piece is made 
possible.
    And so if you think of this as a large-scale problem and we 
have to solve every single household, it seems big and almost 
undoable. I think the role of the United States can be in 
identifying targeted research and targeted studies and targeted 
development for those things that are keeping new, clean, 
better technologies from spreading. And I don't want to 
underestimate the role of clean fuels as well as clean 
technology; clean fuel means not only modern fuels, but also 
methods for working on crop waste and creating pellets and that 
sort of thing. So I think we have the vision and we have the 
capability and we have a history of identifying those trigger 
points that make a big difference.
    Mr. Ramanathan. May I add to that, Mr. Chairman?
    Mr. Cleaver. Yes, please, Doctor.
    Mr. Ramanathan. First thing to recognize is that they are 
using the most environmental friendly fuel because it is not 
adding carbon dioxide to the air if you are cooking with crop 
residues and cow dung mixture.
    And the cost of these stoves is such that, I think of, for 
example, India, 750 million depend on this, 150 million 
households. It is a $4 billion problem. So to me, I think it is 
a solvable problem. You are not talking about trillions. We are 
not talking about hundreds of billions; with clever micro 
credits and others, we could distribute this.
    One thing I want to talk to you about is the brown clouds 
or the haze you saw covering Kilimanjaro. In Africa, part of 
the source of this black carbon is savanna burning.
    Mr. Cleaver. Is what?
    Mr. Ramanathan. Savanna burning, so that contributes quite 
a bit to that Africa-wide haze, plus the cooking, both those 
sources.
    Mr. Cleaver. Let me follow up.
    When I used to have knees, I could go up to the top of 
Kilimanjaro, and if any of you have done it, you know you start 
at the bottom, and you are in very tropical clothing because 
the temperature is going to be at the century mark. The higher 
you go, the colder it gets, and so you start changing. By the 
time you get to the top, you are on snow. That was a while 
back. Now you get to the top, and you may see little sprinkles 
of snow. The snow on Kilimanjaro, it hasn't completely 
vanished, but it is going there.
    In reading through the testimony and becoming a little more 
familiar with this issue, I started wondering, in this land 
where the Kilimanjaro Airport is not far from the mountain, and 
I am starting to think maybe more planes are landing here, 
maybe that is what is doing the damage. Because there is no 
industry. The industry there is the Western World stealing all 
the water to do plants so that we can have fresh plants in 
hotels every morning, but that is other another whole issue.
    So I am wondering if what causes that haze is the same 
thing that is causing the melting of the snow.
    Mr. Ramanathan. I will comment on that. First, you have to 
understand, when you see the haze above your head, particularly 
if it is above a mile, it may have nothing to do with the local 
source. These things transport over thousands of kilometers.
    For example, in the dry season, between October to April, 
the entire Arabian Sea and the North Indian Ocean is filled 
with haze. It is transported both from the South Asian side and 
from Africa. We have seen elevated regions of the Himalayas 
covered with thick brown clouds. We have been there. We have 
taken pictures with aircraft.
    So the issue of the whole Kilimanjaro, as you know, its 
retreat, originally it used to be thought it was all due to 
global warming. Now, some glaciologists have estimated at least 
half of that, a lot of it is coming from really what we call 
sublimation, just the air becoming dry and the snow 
evaporating.
    So there are multiple causes happening in Kilimanjaro, but 
I would point out, no one has taken a look at really what this 
black carbon is doing to that retreat. It is an area, new 
research to find out. But we know from satellite images that 
soot looms hover around the Kilimanjaro region.
    Mr. Cleaver. Dr. Shindell.
    Mr. Shindell. I was going to comment on the previous 
question a little bit, which was, if, say, the Waxman-Markey 
bill becomes law in this country, there will be a price on 
carbon, like there is in much of the world. I would think that 
it is not necessarily a useful thing to link funding that has 
been associated with the greenhouse gases that are controlled 
under the Kyoto Protocol, the clean development mechanism 
whereby the United States and other wealthy countries pay for 
reductions in other countries; I don't think it makes sense to 
link those with the short-term pollutants like black carbon 
because, as we have talked about, they operate on very 
different time scales.
    But analogous sources, for example, there was an editorial 
in the Wall Street Journal about a global methane fund, where 
the U.S. could help other countries to pay for reductions or a 
global black carbon fund. I think all of these kind of ways 
that the United States can help the developing world to do 
things, like intervene in residential cooking stoves, are quite 
sensible, but I really think we need partners there.
    I am chair of a United Nations environment program 
assessment of the effects of black carbon and ozone on climate. 
And what we are really trying to do is bring in the developing 
world scientists, as Dr. Bond was mentioning, and there is 
capacity there, too. I think if those scientists are able to 
convince their countries that these things are really in their 
own best interests because they are damaging their ability to 
grow crops to feed their population and they are affecting 
their development goals by air pollution--one of the leading 
causes of adverse health impacts in the developing world--if it 
is in their own interest and there is this additional kind of 
carrot of having funding from developing nations to help them 
do something about it, I think that is a combination that would 
actually help to get something done.
    Mr. Cleaver. It is a major challenge because the people who 
live in this area, the Maasai Tribe, which inhabits this 
particular area, they know nothing about global warming. I 
mean, you may as well keep speaking English because they have 
no idea what you are talking about when you start talking about 
global warming because all they know is that the snow on the 
mountain is not as thick as it used to be. That is all they 
know. And they have not had any intellectual conversations or 
debates about it, and nobody is bringing the issue forth. It is 
a challenge to us because I think we are partially responsible 
for much of what they experience. I simply wanted to get some 
kind of reading on this because I guess maybe I am personally 
involved in it and was hoping that--and I still hold that 
hope--that the Waxman-Markey bill will be approved, and if we 
need to tweak it later.
    I like a world black carbon fund idea. I think if we tweak 
it later, it can be the major step to save the planet.
    Anyway, thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Cleaver, very much.
    Here is what I am going to do; I am going to ask each one 
of you to give us your 1-minute summation of what it is that 
you want us to remember, which is a test because you have a lot 
that you want us to know about these subjects. We will go in 
the reverse order of the opening statements.
    And we will begin with you, Mr. Schneider.
    Mr. Schneider. Mr. Chairman, thank you very much.
    I am going to just tick off the policy pieces that you 
really asked me to address today.
    The first one is funding through the climate bill, if we 
are lucky enough to have one, funding for the Diesel Emission 
Reduction Act and through the Jobs bill, a reauthorization in 
funding, and funding through a transportation bill, 
reauthorization, which requires clean construction equipment 
and funds it as a part of that transportation bill.
    And then, lastly, giving the EPA the regulatory authority 
to cover more of the existing in-use diesels that could require 
the use of today's technology to reduce the black carbon 
emissions from them. We have had a good discussion just now 
about the cook stove issue; I am not going to add to that. I do 
talk about the black carbon fund in my written testimony, so I 
would refer you to that.
    And then, lastly, we haven't talked as much about the 
agriculture burning issue. That is an issue that deserves more 
attention. It is going to require international cooperation and 
enforcement of national laws in other countries to really 
accomplish that, but we probably can't get the full benefits of 
black carbon reduction unless we address that.
    Thank you very much for the time today, I appreciate it.
    The Chairman. Dr. Shindell.
    Mr. Shindell. Well, I would start by reiterating that we 
have two problems: a long-term climate change problem and a 
near-term climate change problem. And we can't deal with the 
long-term problem without beginning to reduce carbon dioxide 
emissions as soon as possible.
    But for the near-term problem, I think that consideration 
of the short-lived warming agents, as we are talking about 
today, and not just black carbon, but also methane, carbon 
monoxide and volatile organic carbons, which are also emitted 
by similar processes--for example, the diesel particulate 
filters we have been talking about substantially reduce about 
90 percent black carbon, but also carbon monoxide and volatile 
organics. So if you target all of these as a basket, you are 
likely to make more effective decisions, reductions that can 
lead to significant improvements in air quality as well as 
mitigating climate change.
    And I just repeat the summary of my testimony, that 
reductions in emissions of products of incomplete combustion 
will virtually always improve health. And if targeting 
emissions that are rich in black carbon, carbon monoxide, VOCs 
and methane, you can often find options whose co-benefits are 
so large that they can simultaneously mitigate climate change 
and improve air quality at substantially reduced cost.
    The Chairman. Thank you.
    Dr. Ramanathan.
    Mr. Ramanathan. The Copenhagen Accord requires us to limit 
climate change to less than 2 degrees from pre-Industrial. We 
have already put enough greenhouse gases on the planet, 
according to our climate models, they would already warm the 
planet by 2 degrees. So we are losing time. So we have a 
Herculean task in front of us to meet the Copenhagen Accord, 
and I consider black carbon reductions as an important 
component of our battle to meet that 2 degree warming.
    Thank you.
    The Chairman. Thank you.
    Dr. Bond.
    Ms. Bond. Thank you very much.
    We have discussed some emission sources that produce black 
carbon and other pollutants. And we have also discussed how 
there is the long-term and the short-term effect. What I really 
want you to think about is that we have a portfolio of 
potential solutions that can address climate change in the long 
term and the short term. So don't think about either/or; think 
about, how will we manage the atmospheric trajectory during our 
lifetimes and your children's lifetimes and our grandchildren's 
lifetimes? And our lifetime is a significant component of that 
and of interest to many people.
    The United States has the opportunity to lead in both 
technology and in engagement internationally in this endeavor. 
There are ways to improve both climate and human welfare at the 
same time. I will leave it there. We have a lot in front of us, 
but we have a lot of solutions, and I think we have a lot of 
opportunities.
    The Chairman. Thank you very much.
    And a lot of opportunities to create new jobs, a lot of 
opportunities to engage in technological transfer, a lot of 
incredibly great side benefits from working on this problem if 
we do so in a way that sees the opportunities as well.
    We thank all of you for your tremendous testimony and for 
your incredible work on this subject. That is what made it 
possible for us to have this hearing today.
    With that, this hearing is adjourned. Thank you.
    [Whereupon, at 11:40 a.m., the committee was adjourned.] 

    [GRAPHIC] [TIFF OMITTED] T2588A.061
    
    [GRAPHIC] [TIFF OMITTED] T2588A.062
    
    [GRAPHIC] [TIFF OMITTED] T2588A.063
    
    [GRAPHIC] [TIFF OMITTED] T2588A.064
    
    [GRAPHIC] [TIFF OMITTED] T2588A.065
    
    [GRAPHIC] [TIFF OMITTED] T2588A.066
    
    [GRAPHIC] [TIFF OMITTED] T2588A.067
    
    [GRAPHIC] [TIFF OMITTED] T2588A.068
    
    [GRAPHIC] [TIFF OMITTED] T2588A.069
    
    [GRAPHIC] [TIFF OMITTED] T2588A.070
    
    [GRAPHIC] [TIFF OMITTED] T2588A.071
    
    [GRAPHIC] [TIFF OMITTED] T2588A.072
    
    [GRAPHIC] [TIFF OMITTED] T2588A.073
    
    [GRAPHIC] [TIFF OMITTED] T2588A.074
    
    [GRAPHIC] [TIFF OMITTED] T2588A.075
    
    [GRAPHIC] [TIFF OMITTED] T2588A.076
    
    [GRAPHIC] [TIFF OMITTED] T2588A.077
    
    [GRAPHIC] [TIFF OMITTED] T2588A.078
    
    [GRAPHIC] [TIFF OMITTED] T2588A.079
    
    [GRAPHIC] [TIFF OMITTED] T2588A.080
    
    [GRAPHIC] [TIFF OMITTED] T2588A.081
    
    [GRAPHIC] [TIFF OMITTED] T2588A.082
    
    [GRAPHIC] [TIFF OMITTED] T2588A.083
    
    [GRAPHIC] [TIFF OMITTED] T2588A.084
    
    [GRAPHIC] [TIFF OMITTED] T2588A.085
    
    [GRAPHIC] [TIFF OMITTED] T2588A.086
    
    [GRAPHIC] [TIFF OMITTED] T2588A.087
    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
